TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Report on Audit of Forward Pricing Indirect
                   Rates and Facility Capital Cost of Money
                   Factors for Fiscal Years 2005, 2006, and
                                     2007



                                         September 2005

                             Reference Number: 2005-1C-117




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Web Site          | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          September 15, 2005


 MEMORANDUM FOR DAVID A. GRANT
                DIRECTOR OF PROCUREMENT
                INTERNAL REVENUE SERVICE




 FROM:                       Daniel R. Devlin
                             Assistant Inspector General for Audit (Headquarters Operations
                             and Exempt Organizations Programs)

 SUBJECT:                    Report on Audit of Forward Pricing Indirect Rates and Facility Capital
                             Cost of Money Factors for Fiscal Years 2005, 2006, and 2007
                             (Audit # 20051C0227)

 The Defense Contract Audit Agency (DCAA) examined the contractor’s January 10, 2005,
 proposal for indirect forward pricing rates for Fiscal Years 2005 through 2007 and facility capital
 cost of money factors for Fiscal Year 2005 to determine if the proposed forward pricing rates and
 factors are reasonable.
 The DCAA made adjustments to the contractor’s indirect General and Administrative and
 Material Handling expense rate forecast for the excess of the rates proposed over the rates
 calculated by the application of regression analysis. The DCAA also made adjustments to the
 contractor’s overhead rate corporate assessments assumptions. Additionally, the DCAA adjusted
 the contractor’s proposed facility capital cost of money factors for the most recent Department of
 the Treasury rates.
 The DCAA indicated that the contractor converted to a PeopleSoft®-based accounting system in
 January 2004. The DCAA is not aware of any inadequacies concerning this new system’s
 accumulating, reporting, and billing of costs on Federal Government contracts. The DCAA
 considers the contractor’s planning and budgeting system to be generally adequate for
 development of forward pricing rate proposals.
                Report on Audit of Forward Pricing Indirect Rates and Facility
                Capital Cost of Money Factors for Fiscal Years 2005, 2006, and
                                            2007


The DCAA opined that the contractor has submitted adequate cost or pricing data. The proposal
was prepared in all respects in accordance with applicable Cost Accounting Standards and
appropriate provisions of Federal Government regulations. The DCAA believes the proposal is
an acceptable basis for negotiation of fair and reasonable indirect forward pricing rates and
facility capital cost of money factors, as adjusted by its recommendations.
The information in this report should not be used for purposes other than those intended without
prior consultation with the Treasury Inspector General for Tax Administration regarding their
applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright, Director, at
(202) 927-7077.


Attachment




                                                                                                   2
                                    NOTICE:
The Office of Inspector General for Tax Administration has no objection to the release of
this report, at the discretion of the contracting officer, to duly authorized representatives
of the contractor.
The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to the
public.
This report may not be released without the approval of this office, except to an agency
requesting the report for use in negotiating or administering a contract with the
contractor.
